OFFICE OF AUDIT
REGION 7
KANSAS CITY, KS




                  The City of Cedar Rapids, IA

               CDBG Disaster Recovery Program




2013-KC-1001                                     OCTOBER 23, 2012
                                                U.S. DEPARTMENT OF
                                HOUSING AND URBAN DEVELOPMENT
                                         OFFICE OF INSPECTOR GENERAL




                                                                   Issue Date: October 23, 2012

                                                                   Audit Report Number: 2013-KC-1001



TO:            Yolanda Chavez, Deputy Assistant Secretary for Grant Programs, DG

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 7AGA


SUBJECT:       The City of Cedar Rapids, IA, Did Not Ensure a Competitive Procurement
               Process and Did Not Properly Execute Its CDBG Disaster Recovery-Funded
               Contracts


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the City of Cedar Rapids, IA.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(913)-551-5870.




                                                Office of Audit Region 7
                                  400 State Avenue, Suite 501, Kansas City, KS 66101
                                      Phone (913) 551-5870, Fax (913) 551-5877
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                            October 23, 2012
                                            The City of Cedar Rapids, IA, Did Not Ensure a
                                            Competitive Procurement Process and Did Not Properly
                                            Execute Its CDBG Disaster Recovery-Funded Contracts



Highlights
Audit Report 2013-KC-1001


 What We Audited and Why                     What We Found

We audited the City of Cedar Rapids,        The City generally expended its CDBG Disaster
IA’s property acquisition program. We       Recovery grant funds for property acquisition in
selected the City for review based on a     accordance with applicable Federal regulations.
citizen’s hotline complaint and the         However, it did not ensure a competitive procurement
amount of disaster funding received by      process and did not properly execute its CDBG
the City. During fiscal years 2008          Disaster Recovery-funded contracts. It (1) did not
through 2011, the City’s property           adequately advertise requests for proposals for its two
acquisition program was awarded more        professional services contracts, (2) did not establish the
than $125 million in disaster funding.      cost reasonableness of two contracts totaling more than
Our audit objective was to determine        $12.2 million, (3) executed one contract before
whether the City (1) expended its           obtaining city council authorization, and (4) did not
Community Development Block Grant           include all required provisions in the contracts. The
(CDBG) Disaster Recovery program            City lacked detailed operational procedures, including
grant funds for property acquisition in     checklists, to ensure it adhered to applicable
accordance with Federal regulations and     procurement regulations.
(2) complied with all contract
procurement regulations.

 What We Recommend

We recommend that the U.S.
Department of Housing and Urban
Development (HUD) work with the
State to ensure that the City (1)
develops and implements detailed
operational procedures that fully
implement its procurement policy and
complies with its ordinances, (2)
justifies more than $9.3 million in spent
funds or reimburses the unsupported
amount to the program, (3) justifies
more than $2.8 million in unspent funds
or cancels the use of unsupported funds,
and (4) modifies the contracts to include
all of the required contract provisions.
                           TABLE OF CONTENTS

Background and Objective                                                       3

Results of Audit
      Finding: The City Did Not Ensure a Competitive Procurement Process and
      Did Not Properly Execute Its CDBG Disaster Recovery-Funded Contracts     4

Scope and Methodology                                                          8

Internal Controls                                                              10

Appendixes
A.    Schedule of Questioned Costs                                             11
B.    Auditee Comments and OIG’s Evaluation                                    12




                                           2
                        BACKGROUND AND OBJECTIVE

In May 2008, the Federal Emergency Management Agency declared various counties in the State of
Iowa as disaster areas as a result of severe storms and flooding. The disaster declaration allowed
those counties to receive Federal aid from certain Federal agencies. In the late spring and early
summer of 2008, the State suffered a series of disastrous tornadoes, followed by record-breaking
floods. In some cases, the same community was hit by both events. Among the larger
communities, Cedar Rapids, Iowa’s second largest city, was especially hard hit. An estimated 1,300
blocks in Cedar Rapids were flooded to the point that repair or rehabilitation was difficult or
impossible.

The U.S. Department of Housing and Urban Development (HUD) awarded more than $890 million
in disaster funding through its Community Development Block Grant (CDBG) Disaster Recovery
program. The award was to help the State recover from the disastrous events. The State developed
plans for using the Federal Disaster Recovery funds, and the plans and amendments to the plans
were approved by HUD. The State was required to ensure that all contracts funded under the
Disaster Recovery allocation were carried out in accordance with Federal and State rules and
regulations. It distributed a substantial portion of those funds for planned activities in the areas of
housing buyouts, housing production, and infrastructure projects.

The State tasked the Iowa Department of Economic Development with administering its Disaster
Recovery activities. In part, the Department’s mission is to enhance the economic development of
the State by providing direct financial and technical assistance; providing training to businesses and
individuals; and coordinating other Federal, State, and local economic development programs.

During calendar years 2009 through 2012, the Department awarded the City of Cedar Rapids more
than $166 million of its CDBG Disaster Recovery grant funds. The funds were to help the City
recover from the disastrous events by funding its voluntary property acquisition (buyout) program.
The buyout program was meant to assist property owners in relocating their homes and businesses
outside areas threatened by flooding. The City, in turn, subcontracted the administration of its
buyout program to private entities, some of which joined forces to submit one single proposal. The
City was required to ensure that all contracts funded under the Disaster Recovery allocation were
carried out in accordance with Federal and State rules and regulations.

The Office of Inspector General (OIG) received a citizen’s complaint containing general allegations
related to misuse of CDBG Disaster Recovery grant funds. We concluded that the city generally
expended its CDBG Disaster Recovery grant funds for property acquisitions in accordance with
applicable Federal regulations; however, we did note issues with the city’s procurement process, as
detailed in Finding 1.

The objective of our review was to determine whether the City

      Expended its CDBG Disaster Recovery grant funds for property acquisition in accordance
       with applicable Federal regulations and
      Complied with all applicable contract procurement regulations.

                                                   3
                                 RESULTS OF AUDIT


Finding: The City Did Not Ensure a Competitive Procurement Process
and Did Not Properly Execute Its CDBG Disaster Recovery-Funded
Contracts
The City did not ensure a competitive procurement process and did not properly execute its
CDBG Disaster Recovery-funded contracts. It (1) did not adequately advertise requests for
proposals for its two professional services contracts, (2) did not establish the cost reasonableness
of two contracts totaling more than $12.2 million, (3) executed one contract before obtaining city
council authorization, and (4) did not include all required provisions in the contracts. The City
lacked detailed operational procedures, including checklists, to ensure it adhered to applicable
procurement regulations. As a result, the State and HUD lacked assurance that the City received
the best value for nearly $12.2 million spent on the procurement contracts.


 The City Did Not Adequately
 Advertise Its Contracts


               The City did not adequately advertise its two CDBG Disaster Recovery-funded
               professional services contracts in the newspaper as required by its procurement
               manual. The City’s procurement manual requires a more formal request for bids
               or proposals for purchases over $10,000. In part, it requires its purchasing
               department to use the City’s bid list for products or services and advertise bids or
               proposals in the newspaper as part of the procurement process.

               During calendar year 2009, the City solicited proposals from private companies
               for two separate contracts to provide professional services for the administration
               of its voluntary property acquisition (buyout) program. For both contracts, one in
               May and the other in September, the City solicited proposals from companies on
               its bid list via email and posted the request for proposals on its Web site.
               However, it did not advertise the requests for either contract in the newspaper.
               The contracts totaled nearly $70,000 and more than $4.8 million, respectively.

 The City Did Not Establish the
 Cost Reasonableness of Its
 Contracts

               The City did not establish the required cost reasonableness of two contracts that
               totaled more than $12.2 million. Regulations at 24 CFR (Code of Federal
               Regulations) 85.36(f) required the City to perform a cost or price analysis in

                                                 4
                                                   
           connection with every procurement action, including contract modifications. A
           cost analysis is necessary when adequate price competion is lacking and for sole-
           source procurements, including contract modifications or change orders, unless
           the price reasonablenss can be established on the basis of a catalog or market
           price of a commercial product sold in subtantial quantities to the general public or
           based on the prices set by law.

           For the first contract, a professional services contract estimated to cost more than
           $4.8 million, the City solicited proposals from 12 companies on September 16,
           2009. Three of the companies joined forces to submit the only proposal received.
           The City then awarded the contract to the three companies without performing an
           independent cost estimate or a detailed cost analysis to determine the cost
           reasonableness of the contract price.

           The City also executed six contract modifications to this contract, increasing the
           contract cost to more than $12 million, without performing independent cost
           estimates and cost analyses. As of June 12, 2012, the City had spent more than
           $9.3 million of the master contract amount of $12 million.

           For the second contract, estimated to cost nearly $70,000, the City did not
           perform a required independent cost estimate or detailed cost analysis. It solicited
           proposals from private companies to provide professional intake services for its
           buyout program on May 14, 2009, and received four proposals. The City then
           awarded the contract to the lowest bidder without performing an independent cost
           estimate or cost analysis for each of the proposals to determine the cost
           reasonbleness of the contract price.

           The City also performed six separate contract modifications to this contract,
           increasing the contract cost to more than $184,000, without performing
           independent cost estimates and price analyses. As of March 5, 2012, the City had
           spent more than $176,000 of its own money on this contract and requested HUD
           approval to be reimbursed with CDBG Disaster Recovery grant funds.

The City Improperly Executed
One Contract

           The City executed one contract before obtaining city council authorization. City
           ordinance section 4.03(d) requires the city council to authorize the making of all
           contracts. In part, it states that no contract “shall bind or be obligatory upon the
           City unless either made by ordinance or resolution adopted by the Council, or
           reduced to writing and approved by the Council, or expressly authorized by
           ordinance or resolution adopted by the Council.” Section 5.02(b) permits the City
           manager to execute contracts on behalf of the City when authorized by the
           council.



                                             5
                                              
           A former city manager executed a professional services contract for nearly $4.8
           million before obtaining the required city council authorization. The manager
           executed the contract on February 4, 2010, and city council authorization for the
           city manager to sign the contract was granted on February 10, 2010.

Contracts Did Not Contain All
Required Provisions

           For the two professional service contracts, the City did not include all contract
           provisions required by regulations at 24 CFR 85.36(i). For example, the contracts
           did not contain provisions related to notice of awarding agency requirements and
           regulations pertaining to reporting. In addition, one of the contracts did not
           contain the provision related to compliance with all applicable standards, orders,
           or requirements issued under the Clean Air and Clean Water Acts, including the
           Environmental Protection Agency regulations relating to energy efficiency.

The City Lacked Operational
Procedures


           The City lacked detailed operational procedures to implement applicable
           procurement regulations, including checklists to ensure that its staff (1) advertised
           requests for proposal for its Disaster Recovery-funded contracts in the newspaper,
           (2) established the cost and price reasonableness of the contracts, and (3) obtained
           written approval from the city council before executing contracts, included
           language in the contracts stating that a contract is not valid until receiving city
           council approval, or added an additional signature block within the contracts
           requiring a city council member’s signature.

The City Did Not Ensure the
Best Value for Procurement
Activities

           As a result of the issues discussed above, the State and HUD could not be assured
           that the City received the best value and greatest overall benefit for nearly $12.2
           million spent on its procurement contracts. Further, the City put its Disaster
           Recovery funds at risk by executing its professional services contract before
           obtaining city council authorization.




                                             6
                                              
Recommendations

          We recommend that HUD’s Deputy Assistant Secretary for Grant Programs work
          with the State to require the City to

          1A. Develop and implement detailed operational procedures to ensure that it
              fully implements its existing procurement policy requiring advertisement of
              requests for proposals in the newspaper and compliance with its ordinance
              requiring written approval from the city council before executing contracts.

          1B. Provide cost justification for one professional services contract, including
              each of the six contract modifications totaling $9,355,375 in spent funds, or
              reimburse the unsupported amount to the State’s Disaster Recovery program
              from non-Federal funds.

          1C. Provide cost justification for the remaining unspent funds of the professional
              services contract totaling $2,670,390 or cancel the use of the grant funds for
              the unsupported portion of this amount.

          1D. Provide cost justification for the intake services contract, including each of
              the six contract modifications totaling $184,482 in unspent funds. If the
              City cannot justify this amount, HUD should deny its request for
              reimbursement using grant funds for the unsupported portion of the contract.

          1E. Modify the two Disaster Recovery-funded contracts to include all of the
              required contract provisions.




                                          7
                                            
                         SCOPE AND METHODOLOGY

Our review period generally covered October 1, 2009, through February 29, 2012. We
performed onsite work from March 19 through July 25, 2012, at City Hall located at 101 1st
Street Southeast, Cedar Rapids, IA. We performed additional onsite work at one of the
consultant’s offices located at 417 1st Avenue Southeast, Cedar Rapids, IA.

To accomplish our objective, we reviewed

      Applicable Code of Federal Regulations, the Stafford Act, and Office of Management
       and Budget circulars;
      Applicable HUD handbooks, the State CDBG Management Guide, and the City’s
       Purchasing Manual;
      Applicable sections of the Iowa Administrative Code and the City’s Municipal Code;
      Relevant audit reports and the City’s audited financial statements;
      Relevant contracts and related contractor grant agreements;
      Property acquisition and disposition files; and
      City council meeting minutes and agendas.

We also interviewed the hotline complainant and relevant Iowa Department of Economic
Development, City, and contractor’s staff.

We reviewed a sample of 12 separate property acquisition expenditures out of the 833 that had
successfully passed through the City’s buyout program by March 2, 2012. We selected a total of
11 expenditures from the CDBG Disaster Recovery grant received by the City and selected the
highest amount due to the likelihood of misstatements or the potential for high risk. The first
nine expenditures selected for testing were transactions for the acquisition of single-family
properties. The additional two expenditures selected for testing were transactions for the
acquisition of nonresidential properties. To address a specific allegation contained in the hotline
complaint, we selected another single-family property expenditure that was not part of the
sample universe for a total of 12 expenditures. The cumulative dollar amount of the
expenditures we tested was nearly $2.9 million out of the more than $55.7 million in
expenditures.

To address additional specific allegations brought to our attention during survey, we reviewed 8
separate property disposition contracts out of the 161 that had successfully passed through the
City’s property disposition program by June 12, 2012. We selected the eight property
disposition contracts from a list of the properties acquired using CDBG Disaster Recovery grant
funds received by the City. We selected all of the properties donated to two developers that were
specifically identified by the complainant as private entities, the management of which served on
the City’s Replacement Housing Task Force, which recommended priority use of public funds
for housing while influencing the disbursement of or directing public funds to organizations in
which they had financial interests. We examined the documents to determine whether the

                                                 8
                                                  
property disposition activities generally complied with all applicable Federal, State, and local
procurement regulations, policies, and procedures. We did not review the expenditures
associated with the property dispositions because there were none to review.

We also reviewed the City’s procurement process used to select two contractors involved in the
administration of the buyout program. The two contractors were the only ones involved in the
administration of professional services for the City’s buyout program. The total dollar amount of
the two contracts was more than $12.2 million.

We relied on computer-processed data provided by the City and one of the contractors that
managed the buyout program. We performed sufficient tests of the data using data analysis
techniques, and based on the assessments and testing, we concluded that the data were
sufficiently reliable to be used in meeting our objective.

We performed our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                 9
                                                   
                               INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  Controls over the procurement of goods and services

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                  The City lacked detailed operational procedures for implementing applicable
                   procurement regulations to ensure that its staff advertised requests for proposals
                   for its Disaster Recovery-funded contracts in the newspaper and established the
                   cost and price reasonableness of the contracts.
                  The City lacked sufficiently detailed operational procedures, including
                   checklists, requiring its manager to obtain written approval from the city council
                   before executing contracts or including language in the contract stating that a
                   contract is not valid until authorized by the city council.
                                                 10
                                                   
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS


                  Recommendation number               Unsupported 1/

                             1B                         $9,355,375
                             1C                         $2,670,390
                             1D                          $184,482

1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             11
                                               
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments

Comment




                         12
                           
Ref to OIG Evaluation   Auditee Comments




                         13
                           
                      OIG Evaluation of Auditee Comments

Comment   The City agreed with the finding and suggested ways for implementing each of
          the recommendations. Implementation of the suggested actions should help
          correct the problems.




                                         14
                                           
